SUPREME COURT OF UNITED STATES
CERTIFICATE OF COMPLIANCE
No. 20-187
Okwudili Francis Chukwuani
Petitioner

v.
Solon School District
Respondent

As required by Supreme Court Rule 33.1(h), I certify that this petitioner's response
brief contains 2,537 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 11, 2020.

Signed: Okwudili F. Chukwuani, MD
7309 Winchester Drive, Solon, OH 44139
Phone: 713-574-0043

Notafy Public

r.
JAriET DUNN KOVACHIC
Notary Public, State of Ohio
My Comm. Expires 5-26-25

4

